                National Aeronautics and Space Administration

                    OFFICE OF INSPECTOR GENERAL




                NASA’s Award Closeout Process




                             OFFICE OF AUDITS

IG-14-014                        AUDIT REPORT
                              FEBRUARY 12, 2014
(A-13-005-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

BEI          Brandan Enterprises, Inc.
DCAA         Defense Contract Audit Agency
FAR          Federal Acquisition Regulation
FY           Fiscal Year
GAO          Government Accountability Office
JPL          Jet Propulsion Laboratory
NPR          NASA Procedural Requirements
NSSC         NASA Shared Services Center
OIG          Office of Inspector General


                                                REPORT NO. IG-14-014
FEBRUARY 12, 2014




                                                                                          OVERVIEW

                        NASA’S AWARD CLOSEOUT PROCESS
                                                                                            The Issue

  NASA spent approximately 80 percent of its $17.8 billion fiscal year (FY) 2012
  appropriation on contracts to procure goods and services and grants to and cooperative
  agreements with researchers, universities, and nonprofit entities to fund scientific
  research, fellowships, and educational activities. Once performance under these varied
  instruments is complete, NASA must review and complete a series of steps to close the
  associated files, including ensuring all required documentation is obtained and any
  unused funds are deobligated.1 Federal and NASA guidelines provide timeframes in
  which the closeout process should occur depending on the type of instrument. Meeting
  these timeframes can help limit NASA’s exposure to financial risk by promptly
  identifying any improper payments the Agency may have made and ensuring that
  contractors and grantees have satisfied the terms and conditions of the awards.
  Moreover, timely deobligation of unused funds frees up money for other Agency or
  Government uses.

  The Government Accountability Office, NASA Office of Inspector General, and internal
  Agency studies have all reported problems associated with timely closure of instruments
  at NASA and other Federal agencies. As of October 2013, NASA had more than 15,000
  award instruments that had expired but were not yet closed. To assist with the closeout
  process, NASA initially hired a contractor in 2000 and continues to contract out for
  closeout services.

  We performed this audit to determine whether NASA had adequate procedures in place
  to ensure that instruments are closed timely and in accordance with established
  requirements and that unused funds are identified and appropriately deobligated. The
  scope of our audit included all award instruments the Agency closed in FYs 2011 and
  2012 and all instruments that had expired but the Agency had not yet closed as of
  January 3, 2013. To meet our audit objectives, we selected a statistical sample of 416
  award instruments. Details of the audit’s scope and methodology are in Appendix A.




  1
      Deobligation is a process in which NASA removes previously allocated funding to a contract or grant
      during the closeout process when excess funds remain on the instrument.



REPORT NO. IG-14-014
                                                                                       OVERVIEW



     Results

     Although NASA has slowed the growth of its backlog of award instruments awaiting
     closeout, the Agency needs to make further improvements to its closeout process. First,
     we found that NASA’s closeout process is not uniform across the Agency. Specifically,
     Centers vary in the type of instruments they send to the contractor for processing and
     when they do so. As a result, some Centers are not optimizing the contractor’s services,
     which contributes to the Agency’s backlog. Similarly, contract personnel at the Centers
     use different guidance when closing out award instruments, which impairs their ability to
     share information and work across the Centers. Second, although we found that NASA
     generally deobligates unused funds in a timely manner, we nevertheless identified
     $2.7 million in our sample of instruments that was not timely deobligated. Based on our
     statistical projections, we estimate that the Agency has more than 4,000 instruments with
     $61 million in funds that were not deobligated in a timely manner, $44 million of which
     relates to expired instruments with funds that could be put to better use. Third, we found
     that the Agency incurred $6,699 in unnecessary service fees associated with grant
     accounts that remained open past the period of expiration. Statistically projected, this
     amounts to an estimate of approximately $170,000 in unnecessary service fees. Fourth,
     we found that the Agency closed some award instruments without sufficient evidence that
     the associated funding had been appropriately spent. Consequently, NASA has increased
     risk that the costs associated with over $43 million in awards may not be allowable and
     reasonable. Finally, we identified best practices that if applied across the Agency could
     help NASA strengthen its closeout process.

     Management Action

     In order to improve the award closeout process, we recommended the Assistant
     Administrator for Procurement (1) standardize the award closeout process across the
     Centers, (2) engage Center procurement officials to ensure contractor staff use
     standardized procedures as specified in the contract, (3) implement best practices across
     the Agency as applicable, and (4) review the backlog of instruments in need of closeout
     and transfer additional work to the contractor consistent with the recommendations in this
     report.

     In response to our draft report, the Assistant Administrator for Procurement concurred
     with our findings and recommendations, stating that NASA has identified a Headquarters
     representative who will work collaboratively with each Center to develop and implement
     a standardized closeout process that reflects best practices. We consider the proposed
     actions to be responsive and will close the recommendations upon completion and
     verification of those actions.




ii                                                                         REPORT NO. IG-14-014
OVERVIEW



  Although the Assistant Administrator concurred with our recommendations, he expressed
  concerns with our findings that the Agency did not timely deobligate $2.7 million and
  that NASA has increased risk that the costs associated with more than $43 million in
  awards may not be allowable and reasonable.

  With regard to deobligation of the $2.7 million, the Assistant Administrator asserted that
  we had not considered the fact that before deobligating excess funds NASA must obtain
  final invoices from contractors and incurred cost audit reports from the Defense Contract
  Audit Agency (DCAA). However, we did consider and discuss these issues in this report
  (see pages 14-15). Moreover, the Federal Acquisition Regulation establishes timeframes
  by which agencies should obtain documentation required for closeout, and the
  $2.7 million we identified was associated with instruments past those timeframes.
  Indeed, 57 percent of the instruments in our sample were more than a year overdue. In
  addition, we identified concerns with the diligence of some Agency and contractor
  personnel in handling the closeout process, including instances in which Agency
  personnel took no action to seek required documentation from contractors and instances
  in which files were missing. Finally, we noted that the closeout contractor is better
  positioned to invest the necessary time and effort to track down documents and reports
  necessary to complete the closeout process and therefore NASA should make an effort to
  transfer expired instruments to the closeout contractor in a more timely manner.

  The Assistant Administrator also did not agree with our conclusion that the Agency has
  increased risk that more than $43 million in awards may not be allowable and reasonable
  by closing two cost type contracts without evidence of a final audit, pointing to other
  measures that provide the Agency assurance related to the allowability of a contractor’s
  costs such as the requirement that contractors have adequate accounting systems and use
  audited indirect rates for billing purposes. In addition, the Assistant Administrator
  pointed to the diligence of NASA procurement personnel in reviewing contractor reports
  and invoices throughout performance of the contract and pre-award and yearly incurred
  cost audits and desk reviews by DCAA.

  We agree that all these measures provide some level of assurance regarding allowability
  and reasonableness of incurred costs. However, we do not believe they are substitutes for
  the final audit required by the Federal Acquisition Regulation.

  The Assistant Administrator also stated that for one of the contracts his office confirmed
  that yearly-incurred cost audits were conducted and that the Contracting Officer
  performed a risk assessment prior to closing out the contract. However, we reviewed the
  contract file and found no evidence of any incurred cost audits performed during the life
  of the contract. In addition, we followed up with the appropriate procurement personnel
  and asked whether incurred cost audits had been performed and were available although
  they were missing from the file. We were told the Contracting Officer had “no
  recollection of the availability of the incurred costs audits” and that therefore such audits
  were not considered in making the determination to close the instrument. Moreover, the
  contracting officer waited 7 years after the period of performance ended to request a final
  audit from DCAA, at which time DCAA determined it was not cost effective to perform


REPORT NO. IG-14-014                                                                              iii
                                                                                       OVERVIEW



     the audit. Finally, in reaching out to DCAA regarding this contract, procurement
     personnel informed us that DCAA did not retain records for contracts that old and
     therefore could not determine whether it had perfomed any incurred cost audits for this
     contract. Considering this extensive support gathered during the course of our audit and
     the lack of evidence provided by the Agency in support of its response, we continue to
     believe NASA has increased risk that the costs associated with more than $43 million in
     awards may not be allowable and reasonable.

     Management’s full response is reprinted in Appendix D. Technical comments provided
     by Agency management have been incorporated, as appropriate.




iv                                                                         REPORT NO. IG-14-014
FEBRUARY 12, 2014




                                                         CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 6

  RESULTS
      Additional Improvements Needed in NASA’s Award
      Closeout Process _____________________________________ 7

  APPENDIX A
      Scope and Methodology _______________________________ 21
      Review of Internal Controls ____________________________ 23
      Prior Coverage ______________________________________ 23

  APPENDIX B
      Sampling Methodology and Projection of Results ___________ 25

  APPENDIX C
      Table of Monetary Findings ____________________________ 28

  APPENDIX D
      Management Comments ______________________________ 29

  APPENDIX E
      Report Distribution ___________________________________ 32




REPORT NO. IG-14-014
FEBRUARY 12, 2014




                                                                                  INTRODUCTION


Background
  In fiscal year (FY) 2012, NASA spent approximately 80 percent of its $17.8 billion
  budget on contracts to procure goods and services and on grants to and cooperative
  agreements with researchers, universities, and nonprofit and commercial entities to fund
  scientific research, fellowships, and educational activities. Once performance under
  these instruments is complete, NASA must review and complete a series of steps to close
  the associated files, including ensuring all required documentation is obtained and any
  unused funds are deobligated.2 Federal and NASA guidelines provide timeframes in
  which this closeout process should occur depending on the type of instrument. Meeting
  these timeframes can help limit NASA’s exposure to financial risk by promptly
  identifying any improper payments the Agency may have made and ensuring that
  contractors and grantees have satisfied the terms and conditions of the awards.
  Moreover, timely deobligation of unused funds frees up money for other Agency or
  government uses.

  Within the past 5 years, NASA has awarded an average of 12,000 instruments per year.
  As of October 2013, NASA had more than 15,000 expired instruments – instruments for
  which the period of performance had passed – that had not been closed, including
  contracts, grants, interagency agreements, purchase orders, task orders, and delivery
  orders across the Agency.

  Untimely Award Closeout is a Government-wide Issue. Timeliness and accuracy in
  award closeout is an issue across the Federal Government. The Government
  Accountability Office (GAO), NASA Office of Inspector General (OIG), and internal
  NASA studies have all reported problems associated with closing out Federal
  instruments, ranging from poor governance over the closeout process to insufficient
  resources dedicated to performing closeout actions. For example, GAO found that some
  agencies lack adequate systems or policies to properly monitor grant closeouts or do not
  deobligate grant funds in a timely manner.3 In a 2012 report, GAO identified more than
  $794 million in Federal funds remaining in expired grant accounts and found that Federal
  agencies were continuing to pay service fees to the Department of Health and Human




  2
      Deobligation is a process in which NASA removes previously allocated funding to a contract or grant
      during the closeout process when excess funds remain on the instrument.
  3
      GAO, “Improving the Timeliness of Grant Closeouts by Federal Agencies and Other Grants
      Management Challenges” (GAO-12-704T, July 25, 2012).


REPORT NO. IG-14-014                                                                                        1
                                                                                             INTRODUCTION



    Services for maintaining payment management system accounts for grants and
    cooperative agreements that should have been closed. Similarly, in December 2012,
    GAO released a report noting that military departments have limited data on the extent
    and nature of their contract closeout backlogs and lack performance metrics to measure
    their progress in closing out contracts.4

    In recent work, we identified weaknesses in NASA’s grant administration and
    management, including in the closeout process. In August 2012, we reported that NASA
    had not timely closed a grant to the HudsonAlpha Institute for Biotechnology or
    completed several key steps in the closeout process, including deobligating $17,596 in
    unspent funds and blocking the grantee’s ability to draw down additional funds.
    Similarly, as part of the audits of NASA’s FYs 2011 and 2012 financial statements,
    independent auditors found that the Agency was not closing out grants within required
    timeframes and recommended NASA improve its monitoring of the timeliness of the
    grant closeout process and increase efforts to resolve the backlog of grants awaiting
    closeout.5 Finally, internal Agency reviews conducted between FYs 2008 and 2013
    identified issues with NASA Centers not closing out instruments within the required
    timeframes, specifically noting a lapse between the date of completion of the activity
    associated with the instrument (e.g., final delivery of goods under a contract) and the date
    Centers began the closeout process.

    NASA’s Organizational Structure. NASA consists of a Headquarters Office in
    Washington, D.C.; nine geographically dispersed Centers; and the Jet Propulsion
    Laboratory (JPL), a federally funded research and development center operated under
    contract by the California Institute of Technology. In addition, NASA has a Shared
    Services Center (NSSC), which is a partnership between the Agency and a contractor to
    consolidate a variety of support functions, including financial management, human
    resources, information technology, and procurement. With regard to award closeout, the
    NSSC administers the Agency’s contract for closeout services as well as 99 percent of the
    Agency’s grants and cooperative agreements. The Headquarters Office of Procurement
    has overall responsibility for establishing procurement policy. In addition, each Center
    has a procurement office responsible for the day-to-day administration and closeout of
    award instruments at the Centers.

    NASA’s Closeout Process. NASA’s award closeout process begins once the contractor
    or grantee has complied with the terms of the award and the period of performance,
    including any options, has expired. For example, contract “physical completion” occurs
    when the goods or services procured by the Agency have been fully delivered. While the
    closeout process varies for different types of instruments, it generally involves review of
    the instrument file to ensure that all required forms, reports, and financial audits have

    4
        GAO, “DOD Initiative to Address Audit Backlog Shows Promise, but Additional Management Attention
        Needed to Close Aging Contracts” (GAO-13-131, December 2012).
    5
        NASA OIG, “Audit of the National Aeronautics and Space Administration’s Fiscal Year 2011 Financial
        Statements” (IG-12-004, November 15, 2011), and “Audit of the National Aeronautics and Space
        Administration’s Fiscal Year 2012 Financial Statements” (IG-13-003, November 15, 2012).



2                                                                                    REPORT NO. IG-14-014
INTRODUCTION



  been completed and verification that all excess funds have been deobligated. The
  requirements that frame NASA’s closeout process are derived from a combination of
  Federal regulation and Agency policy.6 In addition, certain Centers have their own
  Center-level guidance concerning the closeout process.

  An important part of the closeout process is determining whether unspent funds remain
  on the award that should be deobligated. Depending on the appropriation that funds the
  award, NASA may use deobligated funds for other Agency purposes or must return them
  to the Treasury for other Government use.

  As shown in Figure 1, Federal requirements and Center guidance have established
  timeframes for closing out contract and grant files.7

                                    Figure 1. Timeframes for Closeout

            Purchase Orders, Delivery Orders, and Task Orders should be
            closed within 90 days.


            Firm Fixed Price Contracts should be closed within 6 months
            after the date on which the contracting officer receives evidence of
            physical completion.


            Grants and Cooperative Agreements should be closed within 6
            months after the date on which the grant officer receives evidence of
            physical completion.


            Cost Reimbursable, Time and Material, and Labor-Hour should
            be closed within 36 months of the month in which the contracting
            officer receives evidence of physical completion.


            All Other Contracts (e.g., Interagency Agreements) should be
            closed within 20 months of the month in which the contracting
            officer receives evidence of physical completion.


  Source: FAR and NSSC Delivery Guide.




  6
      Federal Acquisition Regulation (FAR) 4.804, NASA Procedural Requirements (NPR) 5800.1 “NASA
      Grant and Cooperative Agreement Handbook,” and NASA FAR Supplement PART 1804.804.
  7
      FAR 4.804-1; NSSC Service Delivery Guide, “Agency-wide Contract Closeout Services” (November 24,
      2008). These timeframes do not apply if the contract or grant is in litigation or actions are being taken to
      terminate the award.



REPORT NO. IG-14-014                                                                                                 3
                                                                                                       INTRODUCTION



    History of Closeout Process at NASA. Approximately 15 years ago, NASA recognized
    that the award closeout process did not receive the same level of attention across the
    Agency as the initial award or the day-to-day administration of contracts, grants, and
    agreements. To address this issue and reduce the backlog of instruments awaiting
    closure, in 2000, NASA awarded a contract to a private company to assist in performing
    closeout services. Since February 2013, Brandan Enterprises, Inc. (BEI) has served as
    NASA’s closeout contractor.

    Although NASA has slowed the growth of its closeout backlog, NASA procurement
    officials have continued to identify areas for improvement. Accordingly, for its current
    closeout contract NASA used a fixed price incentive contract with performance metrics
    that require BEI to close a specific number of instruments in order to earn the full amount
    of money available on the contract.8 Agency officials hope that incentivizing BEI to
    close more instruments will help reduce NASA’s closeout backlog.

    The BEI contract has an 8-month base period with three 1-year options and one 8-month
    option. If NASA exercises all option periods, the maximum fixed price (excluding
    incentives) of the contract is $12.4 million.9 As shown in Table 1, the contract sets target
    ranges for BEI for five types of instruments in the option periods.10 For example, the
    range for fixed price contracts is between 650 and 800 instruments. To earn the
    maximum fixed price amount under the contract, BEI must fall within the range for each
    category. In addition, BEI may earn an incentive if it exceeds the upper limit in any three
    categories by 25 percent and meets the target in the remaining two categories (see
    Table 1). For example, if BEI exceeds the range for categories 1 through 3 by 25 percent,
    and falls within the range for categories 4 and 5, it would earn the incentive.11
    Conversely if BEI is unable to close the minimum number of instruments in any two
    categories, it is required to pay NASA an amount equal to 15 percent of the fixed price
    established for each of the categories for which the range was not met.




    8
         NASA established the incentive portion of the contract to increase productivity relative to the number of
         instruments closed within the contract period of performance.
    9
         As of September 2013, Agency procurement officials said they intended to exercise the first option
         period under the contract.
    10
         Each of the five categories has a set price for both the base and option periods totaling the full fixed price
         of the contract. However, while metrics were established to incentivize performance during the option
         periods, no metrics were established for the contract base period. NASA officials told us they did not
         establish ranges for the base period to give BEI an opportunity to become familiar with Agency
         operations and procedures before holding the company to a specific metric.
    11
         The total incentive for option periods 1 through 3 is $150,000 and for option 4 is $112,500.



4                                                                                             REPORT NO. IG-14-014
INTRODUCTION



                    Table 1. BEI Closeout Performance Range Per Option Period
                                                                                       Number of Instruments
                      Type of Instrument to Close
                                                                             Option Periods 1-3          Option Period 4
      Purchase, Delivery, and Task Orders against General
      Services Administration and NASA Indefinite Delivery                       6,000-7,500                4,500-5,625
      Indefinite Quantity Contractsa
      Fixed Price Contracts                                                        650-800                    487-600
      Cost Reimbursement Contracts                                                 150-250                    112-187
      Interagency Agreements                                                       500-750                    375-562
      Grants and Cooperative Agreements                                          3,500-4,500                2,625-3,375
  Source: NASA’s Contract File for BEI.
  a
      Indefinite Delivery Indefinite Quantity contracts provide for an indefinite quantity of services over a fixed period.

  The NSSC administers the BEI contract. Thirty-five BEI employees located at the NSSC
  and at NASA’s 10 Centers work under the contract. Staffing levels at each Center vary
  from one to five full-time equivalent positions depending on the quantity and type of
  instruments at a particular Center. Although the BEI contract was established to provide
  closeout services Agency-wide and Centers are encouraged to use BEI’s services, they
  are not required to do so and may instead use Center procurement staff to close
  instruments. Therefore, Center management determines the level of involvement BEI
  will have in the closeout process at their respective Centers, including the types and
  number of instruments the Center will direct to the company for closure. Although there
  are no provisions in the contract that guarantee BEI will receive a minimum number of
  instruments to close, the contract’s performance targets were based on historical data
  concerning the number of instruments the Centers had referred to previous contractors, as
  well as the number of award instruments expiring in the future.

  BEI is responsible for submitting monthly progress reports to NASA detailing metrics
  such as the number of instruments the company received for closeout, the number it
  closed, and whether required timeframes were met. In addition, the reports state the top
  reasons instruments were not closed that month. BEI provides metrics for each Center as
  well as an Agency-wide summary report. NASA officials use these reports to monitor
  BEI’s progress and to determine if BEI is meeting or exceeding its performance goals.




REPORT NO. IG-14-014                                                                                                          5
                                                                                            INTRODUCTION



    Closeout Backlog. As shown in Figure 2, NASA’s backlog of instruments awaiting
    closeout has remained consistent, averaging approximately 7,500 for the past 7 years.12
    Since 2008, the Agency has made a concerted effort to close expired instruments. As
    shown in Figure 2, an average of 13,000 instruments expired in each of the past 7 years,
    and the Agency consistently closed on average 12,000 instruments each year. However,
    in order to reduce the backlog the Agency will have to focus greater effort on not only
    closing instruments that expire each year but also instruments that have accumulated as
    backlog from prior years.

                                           Figure 2. Closeout Backlog
             16000

             14000

             12000

             10000
                                                                                            Expired
              8000
                                                                                            Closed
              6000                                                                          Backlog

              4000

              2000

                  0
                        2007       2008      2009      2010       2011      2012   2013
    Source: NASA Enhanced Procurement Data Warehouse Statistics (October 2013).




Objectives
    The overall objective of our audit was to determine whether NASA had adequate
    procedures in place to ensure that award instruments are closed in a timely manner in
    accordance with established requirements and that any unused funds are appropriately
    identified and deobligated. See Appendix A for details of the audit’s scope and
    methodology, our review of internal controls, and a list of prior coverage.




    12
         The backlog shown in the chart is cumulative only for the years listed.



6                                                                                     REPORT NO. IG-14-014
RESULTS




                   ADDITIONAL IMPROVEMENTS NEEDED IN NASA’S
                                    AWARD CLOSEOUT PROCESS

          Although NASA has slowed the growth of its backlog of award instruments awaiting
          closeout, the Agency needs to make further improvements to its closeout process.
          First, we found that NASA’s closeout process is not uniform across the Agency.
          Specifically, Centers vary in the types of instruments they send to the contractor for
          processing and when they do so. As a result, some Centers are not optimizing the
          contractor’s services, which contributes to the Agency’s backlog. Similarly, contract
          personnel at the Centers use different guidance when closing out instruments, which
          impairs their ability to share information and work across the Centers. Second,
          although we found that NASA generally deobligates unused funds in a timely
          manner, we nevertheless identified $2.7 million in our sample of instruments that
          was not timely deobligated. Based on our statistical projections, we estimate that the
          Agency has more than 4,000 instruments with $61 million in funds that were not
          deobligated in a timely manner, $44 million of which relates to expired instruments
          with funds that could possibly be put to better use. Third, we found that the Agency
          incurred $6,699 in service fees associated with grant accounts in our sample that
          remained open past the period of expiration. Statistically projected, this amounts to
          an estimate of approximately $170,000 in unnecessary service fees. Fourth, we
          found that the Agency closed some award instruments without sufficient evidence
          that the associated funding had been appropriately spent. Consequently, NASA has
          increased risk that the costs associated with over $43 million in awards may not be
          allowable and reasonable. Finally, we identified best practices that, if applied across
          the Agency could help strengthen NASA’s closeout process.

Inconsistent Closeout Process Across Centers
  NASA does not mandate that Centers use BEI for all closeout activity. Consequently, we
  found wide variation among the Centers in how they utilized the contractor’s services.
  We also found no standardized guidance for closeout across the Agency.

  Varying Use of Closeout Contractor. We found that some Center procurement officials
  utilize a “cradle to grave” approach to award instruments, performing all activities from
  pre-award to closure themselves. At other Centers, officials use the closeout contractor
  for all types of award instruments, while at others, contractor involvement is limited to
  certain types of instruments. For example, at Goddard Space Flight Center (Goddard)
  procurement staff may send instruments to BEI for closeout or close the instruments
  themselves; the practice varied among individual staff members. In contrast, at Kennedy
  Space Center (Kennedy), procurement officials routinely sent most types of instruments




REPORT NO. IG-14-014                                                                            7
                                                                                                                  RESULTS



    to BEI, including most recently cost-type contracts. At Johnson Space Center (Johnson),
    delivery and task orders are sent to BEI only when the base contract is ready for closure,
    while at Langley Research Center (Langley) they are sent when the individual orders are
    complete.

    We understand that each Center varies in the number and type of awards made, thus
    affecting the pool of instruments that may be referred to BEI for closure. However, we
    noted that while Goddard handles among the largest number of procurements at NASA
    (22 percent of the total Agency procurements in FYs 2012 and 2013), the number of
    instruments it transfers to BEI for closure is quite small in comparison – roughly
    8 percent.

    Figure 3 shows the variation among the Centers in the number of instruments sent to BEI
    for closure between February and September 2013 and BEI’s progress in closing those
    instruments.

             Figure 3. Variances in BEI Closeout Status (February-September 2013)
     1800
     1600
     1400
     1200
     1000
       800
       600                                                                                        Received

       400                                                                                        Closed

       200                                                                                        To Be Closed

         0




    Source: BEI Progress Report for the period February-September 2013.
    Note: “To Be Closed” represents BEI’s backlog of instruments in need of closeout and includes instruments carried
    over from the previous contractor. As a result, in some instances the number of closed instruments exceeds the
    number of expired instruments.




8                                                                                              REPORT NO. IG-14-014
RESULTS



  In addition to differences in the number and type of instruments provided to the
  contractor, we also noted differences in the extent of closeout-related work Center
  procurement officials perform before they transfer instruments to BEI. For example, at
  three Centers, procurement officials obtained all required documentation, including
  financial and performance reports and final invoices, and deobligated any unused funds
  before sending instruments to BEI, leaving the company with only the tasks of reviewing
  the files to ensure all required documentation was included and entering closing dates in
  NASA’s electronic procurement system. At other Centers, expired instruments are
  referred to BEI to perform the full range of closeout activities, including obtaining the
  required documentation from the contractor or grantee and working with procurement
  officials to obtain final invoices and reports.

  As previously stated, NASA encourages but does not require use of the closeout
  contractor. Center procurement officials we spoke with explained that in some cases they
  do not refer instruments to the contractor because officials believe that contractor
  personnel cannot handle the workload. However, we believe that BEI has the capacity to
  close more instruments and that referring more work to the company could help NASA
  reduce its backlog.

  Although NASA did not establish performance metrics for the base period of the
  contract, we noted that BEI has closed more than 5,200 instruments as of September
  2013, including, as shown in Table 2, all of the instruments it received from the Centers
  in three of five categories (purchase orders, fixed price contracts, and interagency
  agreements). As a gauge of BEI’s performance, we calculated a minimum performance
  target for the base period using the metrics that will apply to the first option period of the
  contract.13 For the 8-month base period, BEI met the minimum performance target for
  cost reimbursement contracts and for all other categories except grants and cooperative
  agreements, closing at least 80 percent of the minimum target number of instruments.
  Moreover, for the instruments BEI received but had not yet closed, we found company
  employees had made progress on many, for example, working to obtain final invoices
  and reports needed for closure.




  13
       We calculated the minimum performance target for the base period by taking two-thirds (8 months) of
       the standard performance range for the first option period of the contract. See Table 1 for the
       performance range of the first 12-month option period.



REPORT NO. IG-14-014                                                                                         9
                                                                                                                         RESULTS



                     Table 2. BEI Cumulative Received, Closed and Performance Target
                                                                         Instruments        Instruments       Performance
                              Instrument Type
                                                                          Receiveda           Closedb            Target
          Purchase, Delivery, and Task Orders                               3,443              3,610             4,000
          Fixed Price Contracts                                              203                358               433
          Cost Reimbursement Contracts                                       925                142               100
          Interagency Agreements                                             188                272               333
          Grants and Cooperative Agreements                                 1,174               885              2,333
         Source: BEI monthly reports February-September 2013, BEI contract; and OIG analysis.
     a
         Instruments received by BEI are for the period February through September 2013 and do not include instruments left
         by the previous contractor.
         b
           BEI closed more instruments than it received in some categories because of backlog left by the previous contractor.

         The purpose of the contract with BEI is to reduce NASA’s backlog of instruments in
         need of closeout and enable Agency contracting officers to focus on other critical aspects
         of contract management. Failing to utilize the contract for the full range of closeout
         activities limits the Agency’s ability to achieve these goals. As of October 2013, the
         Agency had more than 15,000 instruments that were expired but not closed. In contrast,
         in its most recent monthly report BEI reported a backlog of more than 4,200
         instruments.14 Figure 4 depicts the differences between the instruments in need of
         closure listed in the Agency’s procurement system versus the instruments in need of
         closure reported by BEI. Given that during the base period BEI has closed at least as
         many instruments as NASA has referred to it in all categories and more than that number
         in other categories, we believe that NASA could further reduce its overall backlog if the
         Centers referred more instruments to BEI for closure.




         14
              BEI reports solely on the backlog on instruments that have been turned over to them for closure and not
              on the entire Agency backlog.



10                                                                                                    REPORT NO. IG-14-014
RESULTS



                    Figure 4. Agency and BEI Reported Backlog of Instruments

                         Stennis

                           NSSC

                       Marshall

                         Langley

                       Kennedy                                                                           BEI
                                                                                                         4295
                        Johnson

       NASA Management Office                                                                            Agency
                                                                                                         15,716
         Goddard/Headquarters

                          Glenn

                         Dryden

                           Ames

                                   0    500   1000 1500 2000 2500 3000 3500 4000

  Source: BEI Progress Report for the period February-September 2013; NASA’s Enhanced Procurement Data
  Warehouse (as of October 2013).

  We also found that NASA has no Agency-wide policy or guidance on when instruments
  should be sent to the closeout contractor. As a result, procurement officials sometimes
  hold on to instruments longer than necessary, sending them to BEI only after the
  timeframe for closeout has passed. In addition, when procurement officials leave the
  Agency, files are more likely to be lost or discarded if they have not been turned over to
  the contractor for closure in a timely manner. Without guidance on when to provide
  instruments to the closeout contractor or emphasis on the importance of doing so in a
  timely manner, the Agency is unlikely to make further progress in reducing its backlog.

  Lack of Standardized Guidance. We determined that BEI staff at the Centers do not
  consistently follow the same guidance for closing out instruments. Specifically, not all
  contractor staff use the Agency-wide Contract Closeout Service Delivery Guide
  (Delivery Guide) developed and maintained by NSSC procurement staff. Although
  BEI’s standard operating procedures state that the FAR, NASA FAR Supplement, and the
  Delivery Guide take precedence over Center-specific guidance or processes for closeout,
  we found that BEI staff at four Centers and the NSSC utilize the Delivery Guide, while
  staff at the remaining five Centers follow Center-specific guidance.15




  15
       Johnson is in the process of developing Center-specific guidance.



REPORT NO. IG-14-014                                                                                              11
                                                                                            RESULTS



     The Delivery Guide and Center-specific guidance require different levels of
     documentation in the instrument files. For instance, the Delivery Guide requires screen
     shots from NASA’s procurement and financial systems as evidence that instruments are
     closed in those systems, while Center-specific guidance was generally silent regarding
     the need for such documentation. Further, some Center processes require email
     documentation as evidence that certain reports are not applicable and therefore not
     included in the files. Procurement officials at one Center expressed the view that the
     Delivery Guide required too much documentation and said they therefore instructed
     contractor staff not to follow it, while officials at another Center described the Delivery
     Guide as too general and preferred contractor staff use more detailed, Center-specific
     processes.

     Differing documentation requirements can be problematic in ensuring closeout is
     completely and accurately performed. Moreover, procurement officials at one Center
     also expressed concern that using different processes makes it difficult for contractor staff
     to ask questions of their colleagues at other Centers or to perform closeout work at
     another Center, which may be required depending on closeout needs across NASA.
     Although we found all Center-specific processes consistent with the FAR and NASA
     FAR Supplement, we believe contractor staff should be using standardized processes to
     ensure consistency and efficiency and allow for flexibility in the use of staff.

     Instruments Not Closed Timely. NASA continues to close instruments well outside
     allowable timeframes and has an extensive backlog of expired instruments in need of
     closure. We found that Agency and contractor personnel generally ensured that excess
     funds were identified and deobligated in a timely manner even when the rest of the
     closeout process was not completed on time. Nevertheless, in our sample of
     416 instruments we identified $2.7 million that was not timely deobligated. Based on our
     statistical projections, this results in $61 million in funds not deobligated timely
     ($17 million from closed instruments that have since been deobligated and $44 million
     from expired instruments that could still be put to better use). We also found that the
     Agency incurred $6,699 in unnecessary service fees associated with grant accounts in the
     sample that remained open past their expiration.

     Closed Instruments. We reviewed a statistical sample of 213 instruments NASA closed
     in FYs 2011 and 2012 to determine if they had been closed in accordance with
     requirements and whether any excess funds were deobligated in a timely manner. We
     found that 47 percent of these instruments were not closed within the timeframes required
     by the FAR and NASA guidance. The level of tardiness ranged from an average of
     178 days for purchase, delivery, and task orders to 2,443 days (6.7 years) for cost type
     contracts (see Table 3).




12                                                                           REPORT NO. IG-14-014
RESULTS



                                     Table. 3 Instruments Closed Late
                                                    Number     Number         Average                Funds
               Instrument Type                     Reviewed      Late        Days Late     Deobligated Late
   Purchase, Delivery, and Task Orders                   55        30              178               $6,940
   Fixed Price Contracts                                 44        24              709               $1,000
   Cost Type Contracts                                    6         3            2,443             $148,132
   Interagency Agreements                                53        19              750             $174,901
   Grants/Cooperative Agreements                         55        25              262              $99,292
   Total                                                213       101                              $430,265
   Percentage Closed Late                                        47%
  Source: NASA instrument files.


  Although not all steps in the closeout process were completed within required
  timeframes, we found that Agency and closeout contractor personnel generally ensured
  that excess funds were identified and deobligated in a timely manner. Nevertheless, from
  our sample of 213 closed instruments, we identified $430,265 associated with
  31 instruments that were deobligated late. Based on our statistical projections, we
  estimate that the Agency’s untimely closure of instrument files in FYs 2011 and 2012
  delayed the deobligation of more than $17 million in excess funds that could have been
  used for other Agency priorities or returned to the U.S. Treasury (see Appendix B for
  details of our sampling methodology and projection analysis).

  Expired Instruments. We also reviewed a statistical sample of 203 instruments that were
  expired but not closed.16 We reviewed these instruments to gain an understanding of the
  reasons they had not been closed and the impact of the delay. We found that 115
  (57 percent) of these instruments were more than a year overdue for closeout (see
  Figure 5).




  16
       Instruments were past timeframe for closeout as of January 2013 when the sample was selected.



REPORT NO. IG-14-014                                                                                          13
                                                                                                            RESULTS



                  Figure 5. Expired Award Instruments Past Due as of January 2013
                                                                                        More than 5
                                                                                            years
                                                                                       14 Instruments
                                                                                             7%



                                         Less than 1 year
                                         88 Instruments
                                               43%
                                                                 1-5 years
                                                                    101
                                                               Instruments
                                                                   50%




     Source: NASA instrument files.


     We also identified $2.3 million in undisbursed funds associated with these awards.17
     Projecting these findings, we estimate that the Agency could have more than $44 million
     in excess funds associated with expired instruments that have yet to be deobligated and
     made available for other Agency or government use (see Appendix B for details of our
     sampling methodology and projection analysis).

     Reasons for Untimely Closure. We found that both internal and external factors affected
     the timeliness of NASA’s closeout process. Center officials pointed to difficulty in
     obtaining final deliverables from some contractors and grantees as well as the need for
     contract and grant officials to reconcile final invoices and obtain final audits and past
     performance evaluations as impediments to timely closeout. For example, cost type
     contracts require completion of a final incurred cost audit before they may be closed.
     However, obtaining this audit can take years depending on the workload of the Defense
     Contract Audit Agency (DCAA), the organization that generally performs these reviews.
     In addition, obtaining a final invoice or other required closing documents varies
     depending on the contractor or grantee.

     Procurement staff also pointed to other impediments to the completion of timely closeout.
     For example, NASA and the Department of the Army have an interagency agreement for
     construction and engineering design services. Kennedy and Langley officials said that
     for these types of agreements, it is sometimes difficult to obtain the final invoice from the
     partner agency. In some cases, the other agency may be awaiting a final audit of a
     contractor’s costs. Because obtaining such audits can take years, this creates a domino
     17
          During our audit, NASA worked towards closing these expired instruments to include paying final
          invoices and deobligating excess funds that remained.



14                                                                                       REPORT NO. IG-14-014
RESULTS



  effect in that the Center must leave the agreement open until all required documentation
  is obtained.

  Procurement officials also noted they sometimes have difficulty obtaining final property
  or new technology reports from the responsible offices within their own Centers.18 To
  remedy this issue, officials at one Center told us they reached an agreement with their
  Property Office to dedicate one day per month to the processing of property reports. BEI
  staff informed us that this effort helped them obtain these reports more timely.

  We also identified concerns with the diligence of some Agency and contractor personnel
  in handling the closeout process. Specifically, we identified instances where personnel
  took no action to seek required documentation from contractors or grantees. In other
  instances, we found that instruments had not been closed because the responsible
  procurement official left the Agency and no other Agency representative could locate the
  pertinent file. Table 4 depicts the reasons for the untimely closure of the instruments we
  sampled.

                                      Table 4. Reasons for Untimely Closure
                                                                                                    Percentage of Files
      Reason Provided                                                                                       Impacted
      File missing                                                                                                 3%
      Financial issues – missing final invoice or financial reconciliation                                        23%
      Waiting on final audit                                                                                       6%
      Unable to locate vendor or key official                                                                      1%
      Missing other closing documents a                                                                           30%
      Recently closed; awaiting closure; no other reason provided                                                 36%
      Under investigation                                                                                          1%
      Total                                                                                                     100%
  Source: NASA.
  a
       These files are both awaiting documents from the contractor or grantee and awaiting closeout personnel to request
       the required information.

  We believe that by requiring procurement officials to more timely transfer instruments to
  the closeout contractor, the Agency could avoid many of the issues we identified as
  impediments to timely closeout. Because BEI personnel are tasked solely with closing
  out instruments, they are best positioned to focus the necessary time and effort to track
  down reports from Center officials and documents from contractors and grantees.

  Payment Management System Fees. In addition to untimely deobligation, we found that
  NASA was incurring unnecessary service fees associated with expired grants and
  cooperative agreements. In accordance with a Memorandum of Understanding between
  NASA and the Department of Health and Human Services, NASA pays a service fee of

  18
       Property reports are required for final disposition of all federally owned property under the contract or
       grant. New technology reports provide assurance that any new technology associated with the
       instrument is properly identified.



REPORT NO. IG-14-014                                                                                                       15
                                                                                                   RESULTS



     approximately $5.42 per month for every open grant and cooperative agreement in the
     Department’s Payment Management System.19 In our sample, we identified 25 grants
     that were closed late and 49 grants that were expired but not closed. We found that the
     Agency incurred $6,699 in unnecessary service fees associated with these grants. Based
     on our statistical projections, we estimate that NASA incurred approximately $170,000 in
     unnecessary service fees associated with agreements that were not closed in a timely
     manner. At the close of our review, the Agency informed us of a newly developed
     initiative to eliminate unnecessary service fees for expired grant accounts with zero
     unliquidated obligations. While this new initiative has no impact on the fees identified in
     our audit, if implemented effectively, it could help to reduce similar fees in the future.

Appropriateness of Closeout
     In general, NASA closed the instruments we reviewed in accordance with Federal and
     Agency regulations. However, we identified files that lacked all required documents or
     in which the documentation submitted was inadequate and two instances in which awards
     were closed without a required final audit.

     Twelve of the 213 (6 percent) closed instruments we reviewed were missing either the
     new technology report, final performance evaluation report, or the contract completion
     statement. These reports are required per FAR and Agency regulations.20 New
     technology reports provide assurance that any new technology associated with the
     instrument has been properly identified, while final performance reports evaluate the
     contractor’s performance. Contract completion statements provide assurance that all
     required closeout steps have been completed and verified. Without these reports, the
     Agency has limited assurance or accountability that new technology was properly
     identified, contractor performance was adequate, or that the appropriate closing steps
     were completed for the 12 instruments identified.

     In addition, we identified two closed cost type contracts that lacked evidence of a final
     audit. In one case, the procurement official was unaware as to the reason the contract
     was closed without a final audit. In response to our finding, the procurement official
     contacted DCAA to gather more information regarding its efforts to review this contract.
     As of the end of our fieldwork, DCAA had not provided NASA with the requested
     information. In the second instance, the contract was closed without the audit because
     the responsible procurement official waited 7 years to request an audit from DCAA, at
     which time DCAA determined it was not cost effective to perform the audit. Agency
     officials could not provide an explanation as to why the delay in requesting the audit
     occurred and to our knowledge no penalties were assessed against the procurement
     officials involved. As a result, NASA has increased risk that the costs associated with
     over $43 million in awards may not be allowable and reasonable.

     19
          The Department of Health and Human Services Payment Management System provides financial and
          administrative services for Federal agency grants payments.
     20
          FAR 4.804-5, “Procedures for Closing out Contract Files.”



16                                                                                  REPORT NO. IG-14-014
RESULTS



  Furthermore, 11 of the grants we reviewed were closed with a Summary of Research
  Report, Final Faculty Report, or Final Educational Report that was either inadequate or
  missing entirely. Each of these reports is required per the NASA Grant Handbook as part
  of a grantee’s final reporting requirements.21 In one instance, we found evidence that the
  Technical Officer for a research grant concluded that the grantee’s progress reports and
  final summary of research report were inadequate.22 The three reports were identical in
  nature and did not show evidence of the evolution of the research over the life of the
  grant.23 While the Technical Officer made note of the inadequacy of the reports in the
  file, the grant was closed nevertheless. In our opinion, if the Technical Officer was not
  satisfied with the reporting for this grant, it should not have been closed. Without
  adequate progress and summary reports, NASA has no assurance that the grantee
  appropriately used the $339,000 in funds associated with this grant.

  In another example, the scope of work on an educational grant was changed in order to
  allow a grantee to expend the remaining funds after the original principal investigator
  passed away. The original scope of work was for the grantee to develop a plan to digitize
  film materials brought back from the Moon. After the principal investigator’s death, two
  no-cost extensions were requested and approved. Once the period of performance ended,
  the Agency initiated the closeout process. However, in the midst of the closeout process
  the grantee submitted and was approved for an additional no-cost extension. Almost a year
  later and after the grant once again went to closeout, the grantee submitted an additional
  extension and reactivation request along with a justification for new work to be performed
  with the remaining grant funds. The request was submitted almost 4 months after the
  period of performance end date and requested permission for the grantee to use the
  remaining funding to host a conference on the importance of samples returned from the
  solar system. The request claimed the conference was an extension of the work from the
  original grant; however, the grantee used the funds to pay stipends for scientists as well as
  for conference expenditures and event catering. The Grant Handbook allows for a one time
  no-cost extension received at least 10 days prior to the expiration of the award. In this case,
  multiple no cost extensions were provided, two after expiration of the award.24




  21
       Per NPR 5800.1 “NASA Grant and Cooperative Agreement Handbook,” the Final Summary of Research
       Report is required for Research Grants, Final Educational Activity Report for Education Grants, and
       Final Faculty Report for Training Grants.
  22
       Technical officers have expertise in the proposed area of work and are responsible for monitoring the
       grantee’s performance through review of performance reports. However, Grant Officers are primarily
       responsible for the grant awards.
  23
       Progress reports are required as part of a grantee’s normal reporting requirements and are intended to
       describe the work accomplished during the reporting period. The Summary of Research report is a
       comprehensive summary of the significant accomplishments achieved during the duration of the grant.
  24
       Per NPR 5800.1 “NASA Grant and Cooperative Agreement Handbook” Section 1260.23, a recipient may
       make a one-time no-cost extension, not to exceed 12 months, prior to the established expiration date.
       The NASA Grant Officer must receive written notification of such an extension, with the supporting
       reasons, at least ten days prior to the expiration of the award.



REPORT NO. IG-14-014                                                                                            17
                                                                                           RESULTS



     A Grant Research Assistant at NASA assigned to this award received approval from the
     Technical Officer to extend the grant. The Research Assistant stated that the funds would
     have expired if they deobligated the money so it was in NASA’s best interest to approve
     the request. In our view, given the late receipt of multiple requests for extension and the
     substantial change of scope in the proposal, the original grant should have been closed
     and the remaining funds deobligated. If new work was determined to be necessary by the
     Center, a new grant should have been awarded. Furthermore, while the Grant Research
     Assistant had permission to approve requests and sign off as the Grant Officer for awards
     under $100,000, we believe in this case the Grant Officer should have been consulted
     regarding the scope change. We spoke with the responsible Grant Officer who told us
     that although the circumstances we described were concerning, she was not familiar with
     the file. Because the Grant Officer is ultimately responsible for the grant, we believe she
     should have been consulted on this material change in scope.

Best Practices
     During our review, we identified closeout practices at several Centers that may benefit
     NASA if implemented Agency-wide. First, we found that some Centers have begun
     tracking the total number of instruments in need of closeout as well as the number of
     instruments referred to the closeout contractor. This practice helps focus management’s
     attention on the instruments retained by Center personnel for closeout. Second,
     procurement offices at two Centers hold “closeout days” during which officials set-aside
     time to focus on getting instruments ready for closeout. Third, as previously discussed,
     one Center reached an agreement with its Property Office to designate one day per month
     to processing property reports in order to help keep the closeout process moving. Fourth,
     two Centers established requirements for when and which types of instruments
     procurement officials are required to send to the contractor for closeout. Establishing
     timeframes for when instruments must be provided to the closeout contractor and
     ensuring the contractor is aware of the status of the instrument helps ensure instruments
     are closed timely and accurately. Fifth, the NSSC developed a process that automatically
     notifies grantees of due dates for required reports. These notifications help to remind
     grantees of the steps they need to take to prepare for closeout and reduce the risk that the
     Agency will be waiting on final documentation from the grantee to close instruments.

     Finally, BEI continues to develop best practices and share ideas among Center staff,
     including a tracking tool to identify the impediments to closeout in order to provide
     suggestions to NASA for improvement. In the past few months, the contractor identified
     a large backlog of cost type contracts, an area managers felt BEI personnel had less
     experience in closing. In an effort to enhance performance in this area, the contractor
     provided training to its closeout personnel to familiarize them with requirements for this
     type of instrument. In addition, contractor officials said that they continually
     communicate with procurement officials at the Centers to encourage the use of a “quick
     closeout” process for cost type contracts in which contracting officers negotiate final
     indirect rates without obtaining a final audit in appropriate circumstances.




18                                                                           REPORT NO. IG-14-014
RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response
  NASA is making strides to address its backlog of instruments in need of closeout.
  Maximizing use of the Agency’s closeout contractor is critical to making further progress
  on this issue. While the current contract with BEI is designed to incentivize progress on
  reducing the backlog, it will not be effective without a strong commitment from
  procurement officials Agency-wide. Standardizing when and which instrument types are
  turned over to the closeout contractor and requiring procurement officials to adhere to
  this policy would enable NASA to maximize the contract and allow Agency procurement
  officials to focus on other critical responsibilities.

  In order to improve award closeout across NASA, we recommended the Assistant
  Administrator for Procurement:

  Recommendation 1. Standardize the award closeout process across all Centers to
  include developing and implementing a policy requiring Centers to maximize use of the
  closeout contractor and establishing a timeframe for procurement staff to turn instruments
  over to the contractor.

      Management’s Response. The Assistant Administrator for Procurement concurred,
      stating that NASA will review the current closeout process across all Centers to
      develop and implement a standardized policy, which establishes timeframes where
      applicable to transition files to the closeout contractor and includes maximizing
      utilization of any closeout contract executed by the Agency. The Assistant
      Administrator anticipates completion of this action within 180 days of issuance of our
      report.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive to our recommendation. Therefore, we consider the recommendation
      resolved and will close it upon receipt and verification of those actions.

  Recommendation 2. Engage Center procurement officials to ensure closeout contractor
  staff use standardized procedures, as specified in the contract, across the Centers.

      Management’s Response. The Assistant Administrator concurred and anticipates
      completion of the proposed corrective action within 180 days of the issuance of our
      report.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive to our recommendation. Therefore, we consider the recommendation
      resolved and will close it upon receipt and verification of those actions.




REPORT NO. IG-14-014                                                                           19
                                                                                           RESULTS



     Recommendation 3. As part of the process of standardizing the closeout process,
     implement as applicable the best practices identified in this report and any other best
     practices the Agency identifies.

        Management’s Response. The Assistant Administrator concurred and anticipates
        completion of the proposed corrective action within 180 days of the issuance of our
        report.

        Evaluation of Management’s Response. Management’s proposed actions are
        responsive to our recommendation. Therefore, we consider the recommendation
        resolved and will close it upon receipt and verification of those actions.

     Recommendation 4. Review the backlog of instruments in need of closeout and transfer
     additional work to the closeout contractor as appropriate and consistent with the
     recommendations of this report.

        Management’s Response. The Assistant Administrator concurred and anticipates
        completion of the proposed corrective action within 180 days of the issuance of our
        report.

        Evaluation of Management’s Response. Management’s proposed actions are
        responsive to our recommendation. Therefore, we consider the recommendation
        resolved and will close it upon receipt and verification of those actions.

     Although the Assistant Administrator concurred with our recommendations, he expressed
     concern with our findings that the Agency did not timely deobligate $2.7 million in funds
     and that NASA has increased risk that the costs associated with more than $43 million in
     awards may not be allowable and reasonable. We respond to the Assistant
     Administrator’s comments about these issues in the Overview for this report.




20                                                                           REPORT NO. IG-14-014
APPENDIX A




                                                    SCOPE AND METHODOLOGY

  We performed this audit from January 2013 through January 2014 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We performed work at NASA Headquarters; the NSSC; and nine Centers: Ames
  Research Center, Dryden Space Flight Center, Glenn Research Center, Goddard Space
  Flight Center, Johnson Space Center, Kennedy Space Center, Langley Research Center,
  Marshall Space Flight Center, and Stennis Space Center. We conducted interviews
  across multiple levels of procurement management at Headquarters and each Center in
  order to gain an understanding of the closeout process. We interviewed closeout
  contractor personnel at each Center as well as the Project Manager to understand the
  contractor’s role in closeout the process. Finally, we interviewed procurement
  management at the NSSC to gain an understanding of their oversight of the closeout
  contract. In addition, we obtained and reviewed copies of each Center’s guidance for
  closeout.

  In order to determine whether NASA closed award instruments timely and in accordance
  with requirements, we obtained the universe of all award instruments closed in FYs 2011
  and 2012 from NASA’s Enhanced Procurement Data Warehouse. In addition, to
  determine the reasons instruments were not being closed timely and whether funds were
  deobligated timely, we obtained the universe of award instruments expired as of
  January 3, 2013, but not closed. This universe included only instruments that were past
  their timeframe for closeout (purchase orders-90 days, fixed price contracts-180 days,
  cost type contracts-36 months, interagency agreements-20 months, and grants-180 days).
  We used a simple random sample to select 416 instruments (both closed and expired) to
  review (see our sampling methodology and projection of results in Appendix B).

  For the closed instruments, we reviewed the file to determine whether the instrument was
  closed timely, if the file contained all the required documentation and reports, and if
  excess funds were deobligated timely. In addition, for the expired instruments, we sent
  questionnaires to contracting/grant officers and closeout personnel to obtain an
  understanding of where the instrument was in the closeout process, the reason that it had
  not been closed, and whether excess funds existed. For the instruments, we verified the
  amount of undisbursed funding for each instrument to the PRRPT 24 Purchasing Report
  obtained from SAP Business Warehouse. These universes are the basis for the analysis
  performed and discussed in this report.




REPORT NO. IG-14-014                                                                          21
                                                                                    APPENDIX A



     We also reviewed the closeout contract effective February 1, 2013, along with the
     contractor’s monthly status reports from February 2013 through September 2013.

     Federal Laws, Regulations, Policies, and Guidance. We reviewed all applicable
     Federal, Agency, and Center level regulations and guidance, including the following:

           Code of Federal Regulations (C.F.R.), Title 2, Part 215, “Uniform Administrative
            Requirements for Grants and Agreements with Institutions of Higher Education,
            Hospitals and Other Non-Profit Organizations (OMB Circular A-110),”
            January 1, 2012
           C.F.R., 14 PART 1273, “Administrative Requirements for Grants and
            Cooperative Agreements to State and Local Governments”
           FAR Part 4.804, “Closeout of Contract Files”
           FAR Part 42.708, “Quick Closeout Procedures”

     NASA Policies and Procedures

           NASA Procedural Requirement (NPR) 5800.1, “Grant and Cooperative
            Agreement Handbook,” Section A, June 13, 2008, Section B, April 20, 2007,
            Section C May 19, 2005, and Section D July 23, 2007)
           NASA Procedural Requirement (NPR) 9680.1A, “NASA’s Management of
            Grants and Cooperative Agreements,” November 10, 2011
           NASA FAR Supplement PART 1804.804, “Closeout of contract files”
           210-WI-5104.0.1B, “Goddard Space Flight Center Work Instruction, Contract
            Closeout Procedures,” March 21, 2012
           GLWI-CH-5104.1, Revision J, “Glenn Research Center Work Instruction,
            Closeout Initiation,” February 27, 2012
           KDP-P-1660, Revision I-2, “Kennedy Space Center Marking and Disposition of
            Contract Files Including Contract Closeout”
           LMS-OP-4531, “Langley Space Center Closeout of Procurement Files,”
            March 21, 2014
           NSSC-PR-SDG-0009, Revision 2, “NASA Shared Services Center Service
            Delivery Guide 2.0,” November 24, 2008
           PS-OWI-13, Revision N-1, “Marshall Space Flight Center Organizational Work
            Instruction,” March 11, 2011




22                                                                        REPORT NO. IG-14-014
APPENDIX A



  Use of Computer-Processed Data. To assess the reliability of NASA’s award closeout data
  for instruments closed in FYs 2011 and 2012 and expired instruments as of January 2013, we
  reviewed the query parameters used to extract the data universe of instruments from NASA’s
  Enhanced Procurement Data Warehouse; randomly selected a sample of 416 instruments to
  test and verify completeness and accuracy of the data; and interviewed Agency and Center
  officials. We did identify instances where data in the Enhanced Procurement Data
  Warehouse system was not accurate; however, the instances were immaterial in relation to
  our sample. Therefore, we deemed the data reliable for purposes of this audit.

Review of Internal Controls

  We reviewed and evaluated the internal controls associated with the award closeout
  process. This included reviewing each Center and the NSSC’s process for closing all
  instrument types (purchase orders, contracts, grants, and interagency agreements). In
  addition, we reviewed the controls each Center and the NSSC had in place to monitor the
  work of the closeout contractor. The weaknesses we identified are discussed in this
  report. Our recommendations, if implemented, should correct the identified weaknesses.

Prior Coverage

  During the last 5 years, the NASA OIG and the GAO have issued seven reports of
  particular relevance to the subject of this report. Unrestricted reports can be accessed
  over the Internet at http://oig.nasa.gov/audits/reports/FY11 (NASA OIG) and
  http://www.gao.gov (GAO).

  NASA Office of Inspector General

  “Audit of NASA Grant Awarded to HudsonAlpha Institute for Biotechnology”
  (IG-12-09, August 3, 2012)
  “Audit of NASA”s Grant Administration and Management”
  (IG-11-026, September 12, 2011)

  Government Accountability Office

  “Defense Contracting: DOD Initiative to Address Audit Backlog Shows Promise, but
  Additional Management Attention Needed to Close Aging Contracts” (GAO-13-131,
  December 18, 2012)

  “Grants Management: Improving the Timeliness of Grant Closeouts by Federal Agencies
  and Other Grants Management Challenges” (GAO-12-704T, July 25, 2012)

  “Grants Management: Action Needed to Improve the Timeliness of Grant Closeouts by
  Federal Agencies” (GAO-12-360, April 16, 2012)




REPORT NO. IG-14-014                                                                           23
                                                                                APPENDIX A



     “Federal Grants: Improvements Needed in Accountability and Oversight Processes”
     (GAO-11-773T, June 23, 2011)

     “Grants Management: Attention Needed to Address Undisbursed Balances in Expired Grant
     Accounts” (GAO-08-432, August 29, 2008)




24                                                                    REPORT NO. IG-14-014
APPENDIX B




                                                         SAMPLING METHODOLOGY AND
                                                             PROJECTION OF RESULTS


Sampling Methodology

  For this audit, we used a statistical sampling method of simple random sampling with an
  80 percent confidence level that involves the selection of items from a universe in such a
  way that each item in the universe has an equal probability of being selected as each
  sampling unit is drawn. An 80 percent confidence level allows us to review enough
  instruments in each category but keeps the sample size at a manageable level. We
  selected 416 items from universe of 28,490 with a value of $53,208,820,518. We
  performed two substantive tests to determine whether: (1) instruments were closed in a
  timely manner and (2) funds were appropriately deobligated from these instruments.
  Based on our analysis, we determined that 304 files were not closed on time and 101 files
  had $2,754,094 in funds that were not deobligated on time.


Projection of Results

  Based on the results of our statistical analysis, we are 80 percent confident that between
  1,136 and 1,960 of expired files and 1,365 and 3,609 of closed files in our universe had
  funds that were not deobligated on time, as shown in Table 5.25 This resulted in a
  projected dollar amount of $44,429,678 for expired instruments and $17,008,427 for
  closed instruments, as shown in Table 6.




  25
       We performed the statistical sampling, analysis and projections using WinStats Version 1.0.

REPORT NO. IG-14-014                                                                                 25
                                                                                                          APPENDIX B



                Table 5. Projection of Instruments Late with Deobligation Dollars Based on
                                        80 Percent Confidence Level
                                                          Population      Sample     Error      Lower    Upper
                        Late Closing Out                     Size          Size      Docs       Limit    Limit    Mean
          Expired Purchase Orders                              3,015          53        14         562    1,031     796
          Expired Interagency Agreements                         443          50        34         266      337     301
          Expired Grants                                         655          49         8          64      150     107
          Expired Contracts                                    1,250          51        14         244      442     343
            Subtotal Expired Instruments                       5,363         203        70       1,136    1,960   1,547

          Closed Contract                                         852         50         3          15       87      51
          Closed Interagency Agreements                         1,420         53         8         126      303     214
          Closed Grants                                         4,258         55        17         975    1,657   1,316
          Closed Purchase Orders                               16,597         55         3         249    1,562     905
            Subtotal Closed Instruments                        23,127        213        31       1,365    3,609   2,487

          Stratified Summary Totals                            28,490        416       101       2,500    5,569   4,034
         Source: OIG analysis of NASA data.




         Table 6. Projection of Dollars Deobligated Late Based on 80 Percent Confidence Level
                              Population         Sample          Error               Lower           Upper
     Deobligations               Size              Size         Amounts              Limit           Limit           Mean
Expired Purchase Orders       $818,074,523       $3,647,710      $131,952          $2,195,677      $12,816,961     $7,506,319
Expired Interagency
Agreements                    $562,592,985      $26,923,574      $1,000,028        $5,635,516      $12,084,987     $8,860,252
Expired Grants                $729,007,356      $34,487,768       $104,853          $419,366        $2,383,851     $1,401,609
Expired Contracts          $42,764,182,821     $723,183,772      $1,087,789        $8,630,594      $44,692,403    $26,661,499
 Subtotal Expired
 Instruments               $44,873,857,685     $788,242,824      $2,324,622      $16,881,154       $71,978,203    $44,429,678

Closed Purchase Orders       $2,248,681,975      $3,292,292             $6,940      $126,841        $4,061,505     $2,094,173
Closed Interagency
Agreements                   $1,407,017,264     $52,669,886       $174,901          $386,952        $8,985,105     $4,686,029
Closed Grants                $1,784,935,411     $21,493,787        $99,292         $1,545,989      $13,828,048     $7,687,019
Closed Contracts             $2,894,328,183    $272,029,248       $149,132          $203,347        $4,879,066     $2,541,206
  Subtotal Closed
  Instruments                $8,334,962,833    $349,485,213       $430,265         $2,263,129      $31,753,725    $17,008,427

Stratified Summary
Totals                     $53,208,820,518    $1,137,728,037   $2,754,887        $19,144,282      $103,731,928    $61,438,105
         Source: OIG analysis of NASA data.




    26                                                                                       REPORT NO. IG-14-014
APPENDIX B



  Based on the results of our statistical analysis, we are 80 percent confident that between
  5,363 of expired files and between 9,956 and 13,959 of closed files in our universe were
  closed late. There is no associated dollar amount with this test, as shown in Table 7.

               Table 7. Instruments Late Closing 80 Percent Confidence Level
                                              Population    Sample     Error    Lower    Upper
               Late Closing Out                  Size        Size      Docs     Limit    Limit      Mean
   Expired Purchase Orders                         3,015        53        53     3,015    3,015     3,015
   Expired Interagency Agreements                    443        50        50       443      443       443
   Expired Grants                                    655        49        49       655      655       655
   Expired Contracts                               1,250        51        51     1,250    1,250     1,250
     Subtotal Expired Instruments                  5,363       203       203     5,363    5,363     5,363

   Closed Purchase Orders                         16,597        55       30      7,614   10,492     9,053
   Closed Interagency Agreements                   1,420        53       19        390      628       509
   Closed Grants                                   4,258        55       25      1,568    2,303     1,935
   Closed Contracts                                  852        50       27        385      536       460
     Subtotal Closed Instruments                  23,127       213      101      9,956   13,959    11,958

   Stratified Summary Totals                      28,490       416      304     15,319   19,322    17,321
  Source: OIG analysis of NASA data.

  Based on the results of our statistical analysis, we are 80 percent confident that between
  655 of expired grants and between 1,568 and 2,303 of closed grants that were closed late
  in our sample had Payment Management System service fees, as shown in Table 8. This
  resulted in projected dollar amounts of $72,878 for expired grants and $96,523 for closed
  grants, as shown in Table 9.

     Table 8. Projection of Instruments with Payment Management System Service
                            Fees 80 Percent Confidence Level
                                         Population    Sample     Error        Lower     Upper
            Late Closing Out                Size        Size      Docs         Limit     Limit      Mean
   Expired Grants                                655         49      49           655       655       655
   Closed Grants                               4258          55      25          1568      2303      1935
   Stratified Summary Totals                  4,913        104       74         2,223     2,958     2,590
  Source: OIG analysis of NASA data.



       Table 9. Projection of Payment Management System Service Fees 80 Percent
                                    Confidence Level
                               Population       Sample       Error       Lower        Upper
     Late Closing Out             Size            Size       Docs        Limit       Limit          Mean
   Expired Grants              $729,007,356   $34,487,768     $5,452     $58,166     $87,591       $72,878
   Closed Grants             $1,784,935,411   $21,489,787     $1,247     $60,475    $132,571       $96,523
   Stratified Summary
   Totals                    $2,513,942,767   $55,977,555     $6,699    $118,641    $220,162      $169,401
  Source: OIG analysis of NASA data.




REPORT NO. IG-14-014                                                                                         27
                                                                                                                 APPENDIX C




                                                                TABLE OF MONETARY FINDINGS


         Funds Put to Better Usea                                                   Amount                             Page
         Expired Instruments with funds not deobligated                         $ 44,429,678                             14
         timely
         Payment Management System Fees                                           $169,401                                16
                                                                                $44,599,079
         Total Monetary Findings
     Source: OIG analysis.
     a
          We identify “funds put to better use” as funds that could potentially be used more efficiently if NASA took actions
          to implement and complete the recommendation of ensuring instruments are closed timely and excess funds are
          deobligated timely.




28                                                                                                 REPORT NO. IG-14-014
APPENDIX D




                       MANAGEMENT COMMENTS




REPORT NO. IG-14-014                         29
              APPENDIX D




30   REPORT NO. IG-14-014
APPENDIX D




REPORT NO. IG-14-014   31
                                                                              APPENDIX E




                                                         REPORT DISTRIBUTION



National Aeronautics and Space Administration

     Administrator
     Associate Administrator
     Chief of Staff
     Chief Financial Officer
     Deputy Chief Financial Officer
     Assistant Administrator for Procurement
     Acting Executive Director, NASA Shared Services Center
     Supervisory Contract Specialist, NASA Shared Services Center
     Director, Ames Research Center
     Director, Dryden Flight Research Center
     Director, Glenn Research Center
     Director, Goddard Space Flight Center
     Director, Johnson Space Center
     Director, Kennedy Space Center
     Director, Langley Research Center
     Director, Marshall Space Flight Center
     Director, Stennis Space Center
     Director, Program Operations Division

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management
        Managing Director, Office of Financial Management and Assurance

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations


32                                                                   REPORT NO. IG-14-014
APPENDIX E



     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Operations
  House Committee on Science, Space, and Technology
     Subcommittee on Oversight
     Subcommittee on Space




REPORT NO. IG-14-014                                                    33
Major Contributors to the Report:
   Laura Nicolosi, Director, Mission Support Directorate
   Tekla Colón, Project Manager
   Myra Thompson, Team Leader
   Amanda Parker, Management Analyst
   Arnold Pettis, Statistician
   Sarah McGrath, Editor




REPORT NO. IG-14-014                                       35
                                                                              FEBRUARY 12, 2014
                                                                   REPORT No. IG-14-014




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY14/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
